                                                               UNCLASSIFIED


OFFICE OF INSPECTOR GENERAL
                                                      United States Department of State
                                                      and the Broadcasting Board of Governors
                                                      Office of Inspector General




                              MIDDLE EAST REGIONAL OFFICE

                              Training and Logistical Support for
                              Palestinian Authority Security Forces

                              Performance Evaluation



                              Report Number MERO-I-11-09, July 2011
Inspector
General
Office of




                                                                     IMPORTANT NOTICE
                              This report is intended solely for the official use of the Department of State or the Broadcasting Board
                              of Governors, or any agency or organization receiving a copy directly from the Office of Inspector
                              General. No secondary distribution may be made, in whole or in part, outside the Department of State
                              or the Broadcasting Board of Governors, by them or by other agencies or organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in
                              criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED
                             UNCLASSIFIED




                                           United States Department of State
                                           and the Broadcasting Board of Governors
                                           Office of Inspector General




                                     PREFACE


This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service
Act of 1980, as amended. It is one of a series of audit, inspection, investigative, and
special reports prepared by OIG periodically as part of its responsibility to promote
effective management, accountability and positive change in the Department of State
and the Broadcasting Board of Governors.

This report is the result of an assessment of the strengths and weaknesses of the
office, post, or function under review. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of
applicable documents.

The recommendations therein have been developed on the basis of the best knowl-
edge available to OIG and, as appropriate, have been discussed in draft with those
responsible for implementation. It is my hope that these recommendations will result
in more effective, efficient and/or economical operations.

I express my appreciation to all of those who contributed to the preparation of this
report.




                                       Harold W. Geisel
                                       Deputy Inspector General




                                                                                          ii


                             UNCLASSIFIED
      UNCLASSIFIED




iii


      UNCLASSIFIED
                                               UNCLASSIFIED



                                    TABLE OF CONTENTS

KEY FINDINGS�������������������������������������������������������������������������������������������������������������������� 1
INTRODUCTION���������������������������������������������������������������������������������������������������������������� 2
EXECUTIVE SUMMARY���������������������������������������������������������������������������������������������������� 3
  Results ������������������������������������������������������������������������������������������������������������������������������ 3
  Recommendations�������������������������������������������������������������������������������������������������������������� 4
  Management Comments and OIG Response��������������������������������������������������������������������� 5
BACKGROUND�������������������������������������������������������������������������������������������������������������������� 6
OVERSIGHT BY THE BUREAU OF INTERNATIONAL NARCOTICS
AND LAW ENFORCEMENT AFFAIRS������������������������������������������������������������������������������ 9
  Review of DynCorp Invoices���������������������������������������������������������������������������������������������� 9
  Personnel�������������������������������������������������������������������������������������������������������������������������� 10
  Equipment Transfer and Property Accountability�������������������������������������������������������������11
PERFORMANCE MEASURES������������������������������������������������������������������������������������������ 12
  Palestinian Authority Security Forces Training���������������������������������������������������������������� 12
ABBREVIATIONS�������������������������������������������������������������������������������������������������������������� 14
APPENDIX I – PURPOSE, SCOPE, AND METHODOLOGY�����������������������������������������15
APPENDIX II – TRAINING OFFERED TO NATIONAL SECURITY FORCES,
PRESIDENTIAL GUARD UNITS, AND INSTRUCTORS���������������������������������������������� 17
APPENDIX III – LOGISTICAL SUPPORT FOR PALESTINIAN AUTHORITY
SECURITY FORCES – PROCUREMENT AND PROVISION OF EQUIPMENT���������� 18
APPENDIX IV – COMMENTS FROM THE BUREAU OF INTERNATIONAL
NARCOTICS AND LAW ENFORCEMENT AFFAIRS �����������������������������������������������������19
APPENDIX V – COMMENTS FROM CONSULATE GENERAL JERUSALEM������������� 22




              OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011                     iv


                                               UNCLASSIFIED
                                   UNCLASSIFIED




v   OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                   UNCLASSIFIED
                                     UNCLASSIFIED



KEY FINDINGS

 •	 The Bureau of International Narcotics and Law Enforcement Affairs (INL)
    is generally providing adequate oversight and management of DynCorp
    International (DynCorp). However, INL has not obtained the required
    contract implementation plan from DynCorp or its performance measures.

 •	 INL’s review of DynCorp invoices and approval of resulting vouchers is
    adequate.

 •	 The INL office at Consulate General Jerusalem has only one employee
    on-site, the director, to perform inherently governmental tasks as defined in
    the Federal Acquisition Regulation (FAR). The Office of Inspector General
    (OIG) found the following:

    –– The INL deputy director in Jerusalem, who is a personal services contrac-
       tor (PSC), performs the duties of the INL director when the director is
       not available.

    –– Donation letters of agreement transferring U.S. Government-purchased
       and donated equipment to the Palestinian Authority (PA) have been
       signed by the deputy director, a PSC.

    –– Although locally employed staff and contractors are overseeing and
       managing the task order on-site, INL has no contract administration
       training program for these staff members.

 •	 The PA has not provided required documentation to show that U.S.
    Government-purchased and donated equipment has been incorporated into a
    property accountability system.

 •	 DynCorp has not submitted performance measures or a contract implemen-
    tation plan to INL, both of which are contract deliverables.

 •	 Because of a lack of performance measures, OIG could not fully determine
    whether training of Palestinian Authority Security Forces (PASF), including
    instructors’ presentation of curricula, trainees’ comprehension of material,
    and class attendance, is effective. However, DynCorp has met its internal
    goal of effectiveness.




      OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   1


                                     UNCLASSIFIED
                                               UNCLASSIFIED



    INTRODUCTION

    In November 2007, under a civilian police contract managed by INL, DynCorp
    was awarded a task order focused on training and logistical support (procurement
    and provision of equipment) for the PASF in the West Bank. Since that time, INL,
    in coordination with the U.S. Security Coordinator (USSC)1 has obligated $98
    million and expended approximately $72 million for PASF training and non-lethal
    equipment including vehicles, helmets, bulletproof vests, and uniforms through the
    DynCorp task order.

    The Middle East Regional Office (MERO) of OIG initiated this performance
    evaluation under the authority of the Inspector General Act of 1978, as amended,
    in response to congressional interest in DynCorp’s task order to train and equip
    the PASF. The objectives of this performance evaluation were to determine: (1) the
    requirements and provisions of the task order; (2) whether performance measures
    were established and achieved; (3) whether the Department of State (Department)
    is effectively managing and overseeing the DynCorp task order; and (4) how the
    Department ensures that costs are properly allocated and supported.

    This report, which focuses on training and logistical support, is the second of two
    reports on the Department’s management of security assistance to the PASF. The
    first report addressed infrastructure construction projects under the Framework
    Agreement of August 2, 2007. For this second evaluation, OIG met with officials
    from INL, the USSC, the PA, and Consulate General Jerusalem, and with represen-
    tatives of DynCorp in Jerusalem; Amman, Jordan; and Washington, DC. In addi-
    tion, OIG visited the USSC office at Consulate General Jerusalem; DynCorp head-
    quarters in Jerusalem; the Jordan International Police Training Center (JIPTC) near
    Amman, Jordan; and the DynCorp warehouse in Sterling, Virginia. OIG conducted
    this performance evaluation from July 2010 to February 2011 in accordance with
    the Quality Standards for Inspection and Evaluation issued in January 2011 by the
    Council of the Inspectors General on Integrity and Efficiency.




    1
     The USSC, established in March 2005, is a Department-led program formed to work with Israel, and to
    advise and assist the PA in transforming its security sector and professionalizing its security services. USSC staff
    includes a small international force from Canada, the United Kingdom, and Turkey, as well as U.S. military
    personnel primarily on 6-month tours.



2               OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                               UNCLASSIFIED
                                        UNCLASSIFIED



EXECUTIVE SUMMARY


RESULTS
OIG’s evaluation revealed weaknesses in INL’s management and oversight of
DynCorp’s performance. INL has not evaluated DynCorp’s performance in training
or provision of U.S. Government-purchased and donated equipment against targets
and goals because of a lack of performance measures. According to the statement of
work (SOW) developed by INL under the task order, the contractor was to provide
performance measures for incorporation into an INL-approved contract implementa-
tion plan to be used to measure progress. However, the contractor has not provided,
nor has INL required DynCorp to submit these performance measures, and as a
result, INL has been unable to fully measure progress or document comprehensive
program management.

INL’s review of DynCorp invoices and approval of resulting vouchers is adequate.
The contracting officer’s representative (COR) reviews submitted invoices and vouch-
ers to make certain they are allowable, allocable, and reasonable. INL checks the
invoices and vouchers a second time to ensure they match the DynCorp receipts.

Although according to the FAR, the INL deputy director is not prohibited from
performing inherently governmental work, OIG is concerned that some of the deputy
director’s functions should be performed by a U.S. Government direct-hire employee.

The deputy director attends meetings for the director and is generally viewed as a
U.S. Government direct-hire employee representing the Department. He has signed
donation letters of agreement for U.S. Government-purchased equipment, but OIG
could not determine whether the INL director had authorized the deputy to sign
these letters on his behalf, or whether the INL director can delegate this authority to
a contractor. The deputy director has also served as the acting director of the INL
office. Some of the deputy director’s other duties such as evaluation of DynCorp’s
work and performance, development of acquisition plans, provision of input for
planned equipment purchases, and assistance in contract management, are not
generally considered inherently governmental. Although OIG estimates the majority
of on-site management and oversight of DynCorp is conducted by contractors and
locally employed staff, there is no contract administration training program for these
staff members that might better prepare them for their duties.




         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   3


                                        UNCLASSIFIED
                                            UNCLASSIFIED



    Although required by the donation letters of agreement, the PA has not documented
    that it has incorporated U.S. Government-purchased equipment into a property
    accountability system, and according to INL, such a system has not been established
    by the PA. A property accountability system would validate the PA’s acceptance of
    responsibility to operate and maintain the equipment; ensure U.S. Government assis-
    tance is not wasted through inadequate use or upkeep of equipment; make certain
    that equipment is not improperly diverted; enable the Department to ascertain
    whether any equipment has been lost, pilfered, or destroyed; and verify the location
    and use of all equipment.

    In its initial bid for the task order, DynCorp stated it would focus on performance-
    based objectives and measurements, but the contractor has provided neither an
    overall performance accountability plan as stated in its technical proposal to the
    Department, nor the contract implementation plan as required by the SOW under
    the task order. The failure to provide these contract deliverables has resulted in a lack
    of measurable performance indicators that prevents INL from thoroughly and effec-
    tively managing and overseeing DynCorp’s performance under this task order. OIG
    could not fully determine whether DynCorp’s training of the PASF is effective. As
    measured by the instructors’ accurate presentation of curricula and trainees’ compre-
    hension of the material, DynCorp has concluded that its training has met its internal
    goal of 85 percent effectiveness. There is an adequate system to monitor attendance,
    and the trainees’ course attendance rate averages 90 percent.




    RECOMMENDATIONS

    RECOMMENDATION 1: OIG recommends that the Bureau of International
    Narcotics and Law Enforcement Affairs (INL) require DynCorp to submit perfor-
    mance measures including a detailed schedule and delivery dates for the provision
    and distribution of equipment and delivery of training, which should be incorporated
    into a contract implementation plan to be approved by INL. (Action: INL)


    RECOMMENDATION 2: OIG recommends that the Bureau of International
    Narcotics and Law Enforcement Affairs (INL) review the duties, responsibili-
    ties, and authorities of the INL deputy director position, currently occupied by a
    personal services contractor (PSC), and provide guidance, to include amending the
    PSC’s contract as necessary, regarding the extent of those duties, responsibilities, and
    authorities. Alternatively, OIG recommends that INL convert the deputy director
    position to a U.S. Government direct-hire position. (Action: INL)




4            OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                            UNCLASSIFIED
                                        UNCLASSIFIED



RECOMMENDATION 3: OIG recommends that the Bureau of International
Narcotics and Law Enforcement Affairs ensure that all staff members in its office
at Consulate General Jerusalem are properly trained in contract administration.
(Action: INL)


RECOMMENDATION 4: OIG recommends that the Bureau of International
Narcotics and Law Enforcement Affairs assist the Palestinian Authority in developing
a property accountability system to include U.S. Government-purchased and donated
equipment inventory. (Action: INL)




MANAGEMENT COMMENTS AND OIG RESPONSE
INL and Consulate General Jerusalem provided formal comments on this report,
which are included verbatim in Appendices IV and V, respectively. OIG has incorpo-
rated technical comments from INL and the consulate general as appropriate. Both
entities generally agreed with the intent of OIG’s recommendations. INL and the
consulate general noted they have already complied with Recommendation 3, and
INL reported that efforts are underway to comply with Recommendation 4.

Regarding Recommendation 1, INL noted it will require DynCorp to submit
performance measurements for those areas within DynCorp’s control and request
that DynCorp provide an implementation plan. INL agreed with the intent of
Recommendation 2, but disagreed with its premise, noting that PSCs can perform
inherently governmental functions other than core policymaking and supervision
of U.S. Government direct-hire staff members. OIG is aware of INL’s position, but
remains concerned that a PSC is encumbering the deputy director position at the
INL office in Jerusalem. Given the administration’s concerns about overreliance on
contractors, OIG maintains that it would be prudent for INL to review and adjust
as necessary, the deputy director’s duties, responsibilities, and authorities. INL and
the consulate general both noted that the training of staff members recommended in
Recommendation 3 has begun. In comments on Recommendation 4, INL noted it
has been assisting the PA to build warehouse and distribution capabilities and imple-
ment a modern inventory control system to track and maintain U.S. Government-
purchased and donated equipment.




         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   5


                                        UNCLASSIFIED
                                                    UNCLASSIFIED



    BACKGROUND

    Since 2007, the USSC and INL have supported gendarmerie-style2 training to
    PASF3 battalions based in the West Bank. From FY 2007-2010, approximately $395
    million in U.S. funds were reprogrammed or appropriated through the Department’s
    International Narcotics Control and Law Enforcement account for training, non-lethal
    equipment (including helmets, bulletproof vests, uniforms, and vehicles), facilities, and
    strategic planning assistance for the PASF. Of the $395 million, approximately $157
    million has been designated for training and approximately $72 million designated for
    equipment. The DynCorp task order accounts for approximately $98 million. Table 1
    shows total program funding in support of the PASF from FY 2007-2010.

    Table 1: Department of State Funding in Support of Palestinian Authority Security
    Forces, FY 2007-2010

                           FY 2007        FY 2008           FY 2009           FY 2009          FY 2009          FY 2010              Total
                          appropria-    supplemental         bridge         appropriation    supplemental      appropria-             FY
                             tion       appropriation     supplemental                       appropriation        tion             2007-2010
                                                          appropriation
         Training              $28.6             $13.0            $22.6             $13.5             $39.0          $41.0             $157.7
         Equipment              22.6              12.0                 0               7.0             14.2            17.0              72.8
         Infrastructure         18.6                  0             18.4                 0              49.7          30.5              117.2
         Capacity
                                 6.0                  0              4.0               3.5               4.2            6.5              24.2
         development
         Program
         development            10.6                  0              5.0               1.0               1.9            5.0              23.5
         & support
         Total                $86.4             $25.0             $50.0             $25.0           $109.0         $100.0             $395.4

    Sources: GAO report of May 11, 2010 (Palestinian Authority, U.S. Assistance Is Training and Equipping
    Security Forces, but the Program Needs to Measure Progress and Faces Logistical Constraints) and INL


    Currently, the majority of U.S. Government-funded training is carried out at the
    JIPTC near Amman, Jordan, by police trainers from the Government of Jordan’s
    Public Security Directorate and DynCorp mobile training teams (MTT). INL
    has obligated approximately $85 million through letters of agreement with the
    Government of Jordan to assist in providing basic and specialized training for
    Presidential Guard units and National Security Force (NSF) special battalions.

    2
        A gendarmerie is a military group charged with civilian police duties.
     The National Security Forces (NSF) and Presidential Guard units are part of the PASF. NSF are capable of
    3	

    supporting the civil police and other security forces to maintain law and order and combat terrorism within the
    West Bank. Presidential Guard units protect PA leaders, key installations, and foreign visitors.



6                    OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                                    UNCLASSIFIED
                                        UNCLASSIFIED



JIPTC courses are focused on NSF special battalions, Presidential Guard special
battalions, and PASF instructors. Courses have three basic phases—preliminary
training, basic training, and specialized battalion training. Preliminary training,
designed for unit leaders and staff, consists of courses in officer and non-commis-
sioned officer tactical leadership and combat lifesaving. Basic training includes
courses in operating checkpoints and handling detainees, close quarters self-defense,
patrolling, and countering civil disturbances. Specialized battalion training includes
courses in advanced police tactics, surveillance, and light weapons repair. PASF
trainees also take courses in crime science and human rights. Appendix II includes
more detailed information on training courses.

Before admission to U.S.
Government-sponsored
training, all candidates are
properly vetted for terror-
ist links, human rights
violations, and criminal
records by the Department,
the Governments of Israel
and Jordan, and the PA.
Training curricula are
developed by the USSC and
DynCorp in consultation
with the PA. Actual train-
ing is coordinated among
representatives from the
USSC, INL, and DynCorp
MTTs, who act as on-site
advisors and ensure that the
training follows approved
curricula. Training is also
overseen by a curricula
working group that includes
JIPTC management, as well
as representatives from the
Jordanian Public Security
Directorate, the MTTs, and
the USSC who review curri-
cula effectiveness, teaching
methods, and attendance.                   Figure 1: The photo on the top shows the tin city training
                                           area at the Jordan International Police Training Center. The
                                           photo on the bottom shows the improvised explosive device
                                           field training area.
                                           Source: JIPTC


         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   7


                                        UNCLASSIFIED
                                            UNCLASSIFIED



    JIPTC facilities include a number of areas where simulations take place, including a
    “tin city,” an improvised explosive device field, a tent field, close quarters shoot house,
    a police station used as a headquarters, and a shooting range where trainees learn to
    use various weapons, including AK-47s, M-16s, and 9-millimeter pistols. Figure 1 on
    the previous page shows the tin city and improvised explosive device field. The shoot
    house and police station at JIPTC are shown in Figure 2 below.

    PASF graduates will be
    stationed in nine operations
    camps located throughout
    the West Bank in Jericho,
    Jenin, Tubas, Bethlehem,
    Nablus, Hebron, Tulkarem,
    Qalqilya, and Ramallah. In
    addition to the operations
    camps, the Presidential
    Guard College in Jericho will
    be refurbished and a training
    center in Nuweimah is under
    construction. The comple-
    tion of operations camps and
    training centers in the West                Figure 2: The photo above shows the shoot house and police
    Bank should diminish the                    headquarters training areas at the Jordan International
    need for training at JIPTC.                 Police Training Center.
    JIPTC has provided special-                 Source: JIPTC
    ized battalion training to
    3,100 PASF troops.

    In addition to JIPTC training, DynCorp conducts training of PASF in Ramallah,
    Nablus, Jericho, and Bethlehem in the West Bank using DynCorp MTTs. Since June
    2008, 3,942 students have been enrolled and 145 courses have been given in the West
    Bank. These courses focus on support skills such as English language, computers,
    driving, first aid, and basic management techniques.

    Providing equipment to the PASF is a time-consuming and complex process
    that requires coordination among INL, the Department’s Office of Acquisition
    Management, the USSC, the PA, DynCorp, and the Government of Israel. This
    process is described in detail in Appendix III.




8            OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                            UNCLASSIFIED
                                        UNCLASSIFIED



OVERSIGHT BY THE BUREAU OF
INTERNATIONAL NARCOTICS AND
LAW ENFORCEMENT AFFAIRS

INL has not effectively evaluated DynCorp’s performance against set targets and
goals because the contractor has not provided, nor has the bureau required the
contractor to submit performance measures. OIG determined through its review that
DynCorp appears to be providing adequate training and the necessary equipment to
support the PASF. However, according to the SOW developed by INL under the task
order, the contractor was to “provide performance measures within 5 days of award
including a detailed schedule and delivery dates for the provision and distribution of
equipment and delivery of training.” These performance measures were to be incor-
porated into an INL-approved contract implementation plan against which progress
was to be measured. DynCorp has not submitted measurable performance indicators
as it stated it would in its technical bid, or the contract implementation plan, as
required by the task order SOW. Further, INL has not requested or mandated these
delinquent deliverables. The lack of indicators has hampered INL’s efforts to measure
progress against set criteria or document comprehensive program management for
this task order.




REVIEW OF DYNCORP INVOICES
OIG examined INL vouchers for more than $20 million worth of equipment and
personnel invoices and found that INL’s review of DynCorp invoices and approval of
resulting vouchers is adequate. INL conducts two independent reviews of all submit-
ted invoices and vouchers. The COR first reconciles invoices with DynCorp status
reports and the task order to ensure the work is within the scope of the deliverables
and that invoices match the work performed by the contractor. The COR then
ensures that submitted invoices fall within assigned contract line item numbers. All
equipment is tracked to the approved DynCorp purchase proposal and to its actual
purchase. After the COR reviews all DynCorp invoices and approves the INL vouch-
ers, an assistant in INL checks the invoices and vouchers a second time to ensure they
match the DynCorp receipts.




         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   9


                                        UNCLASSIFIED
                                                   UNCLASSIFIED



     PERSONNEL
     The INL office at Consulate General Jerusalem has only one U.S. Government
     direct-hire employee on-site to perform inherently governmental work, including
     representing the U.S. Government, monitoring DynCorp’s performance, and offi-
     cially accepting goods and services. The INL deputy director at the consulate general
     works under a personal services contract and performs the duties of the INL director
     when he or she is not available. In particular, OIG determined that the INL deputy
     director attends meetings for the director and is generally viewed by those outside the
     Department, including PA officials, as a U.S. Government direct-hire employee who
     represents and speaks for the Department.

     The FAR prohibits the use of contractors to perform inherently governmental functions,
     but also states that the prohibition on contractors performing inherently governmental
     functions does not apply to services obtained through personal services contracts issued
     under statutory authority.4 The INL deputy director, therefore, is not prohibited from
     performing inherently governmental functions under this provision. Nonetheless, OIG
     is concerned, particularly in light of the administration’s concern about over-reliance
     on contractors and the possibility they may be performing inherently governmental
     functions,5 that some of the deputy director’s functions should be performed by a U.S.
     Government direct-hire employee. In addition to representing INL with PA officials,
     OIG found instances in which, from November 2009 to August 2011, the deputy direc-
     tor signed donation letters of agreement on behalf of the INL director that transferred
     millions of dollars worth of U.S. Government-purchased equipment. OIG could not
     determine whether the INL director had authorized signature of these letters on his behalf
     since both the INL director and the deputy director had been replaced by new personnel
     at the time of OIG’s evaluation, and no documentation on delegation of authority from
     the director to the deputy could be found. It is also unclear whether the INL director can
     delegate authority to a contractor to represent the U.S. Government in officially transfer-
     ring U.S. Government-purchased equipment to the PA. When the INL director is not
     in-country, the deputy director serves as the acting director. The deputy director also
     evaluates the day-to-day work and performance of DynCorp, develops acquisition plans,
     provides input for planned purchases of equipment for the PASF, and assists in contract
     management that influences official evaluations of DynCorp—functions not generally
     considered to be inherently governmental.6 In a 2009 Management Assessment Visit
     report,7 the INL team stated that INL Jerusalem should seriously consider designating the
     deputy director position for a direct-hire Foreign Service officer.

     4	
          FAR Subpart 7.502 Applicability.
      Duncan Hunter National Defense Authorization Act for Fiscal Year 2009, Section 321 (110 P.L. 417), October
     5	

     14, 2008; Office of Management and Budget, Office of Federal Procurement Policy Notice of Proposed Policy
     Letter, March 31, 2010.
     6	
          FAR Subpart 7.503(d).
     7	
          INL Management Assessment Visit Report, Jerusalem, September 2009.



10                  OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                                   UNCLASSIFIED
                                        UNCLASSIFIED



OIG interviewed INL staff members in Jerusalem regarding their involvement in
on-site management and oversight of DynCorp logistics and procurement processes.
OIG found that the majority of property transfer and end-use monitoring quarterly
reporting is conducted by contractors and locally employed staff. The OIG team’s
review of various property reports written by the staff revealed there was no standard
approach to report writing or to specific areas to be addressed. Staff members told the
OIG team they had not received any training, but would benefit from such training
if it was made available. Training in contract administration would give a general
framework and foundation for inspecting contract deliverables and writing reports
encompassing all relevant areas. This approach would provide more useful informa-
tion to those with official responsibility for contract administration.




EQUIPMENT TRANSFER AND PROPERTY
ACCOUNTABILITY
Although the donation letters of agreement require the PA to document that U.S.
Government-purchased equipment has been incorporated into the PA’s property
accountability records, the consulate general has never received verification of such
actions. Since the start of the program, tens of thousands of pieces of equipment have
been provided to the PASF through donation letters of agreement, including vehicles,
armored vests, communication equipment, and other non-lethal items. However,
according to INL officials, the PA has not yet certified to Consulate General
Jerusalem that any equipment received from the United States has been integrated
into its property accountability system.

Each donation letter of agreement states that the PA will document incorporation of
U.S. Government-purchased and donated equipment into property accountability
records. However, to date, the PA has not provided such documentation and accord-
ing to INL officials, has not set up a property accountability system. OIG believes
that a property accountability system is essential. An effective accountability process
would validate the PA’s acceptance of responsibility for the operation and mainte-
nance of the equipment. Proper accounting of equipment receipt and maintenance
would help ensure that millions of dollars in U.S. Government assistance is not
wasted through inadequate use or upkeep and make certain the equipment is not
improperly diverted. Further, since the PA has not yet developed a property account-
ability system, there is no way to fully ascertain if U.S. Government-purchased
and donated equipment has been lost, pilfered, or destroyed. Finally, although INL
monitors the end-use of certain designated items as required, it does not monitor the
location and use of all U.S. Government-purchased and donated equipment. The PA’s
lack of a property accountability system limits INL’s ability to fully verify the loca-
tion and use of all equipment.


         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   11


                                        UNCLASSIFIED
                                               UNCLASSIFIED



     PERFORMANCE MEASURES

     The SOW developed by INL under the task order requires DynCorp to submit
     performance measures and a contract implementation plan. Although DynCorp was
     awarded the task order and given notice to proceed in November 2007, the contrac-
     tor never submitted the contract implementation plan, a major deliverable under the
     task order. In addition, the DynCorp technical proposal submitted with its initial
     bid for the task order stated that the contractor would focus on performance-based
     objectives and measurements to control and improve performance. The technical
     proposal also stated that DynCorp would design a performance accountability plan
     to be delivered to INL within 15 days of the award announcement. This plan was
     to include performance metrics, balance scorecards,8 delivery schedules, and reviews
     that would collect and evaluate performance data. DynCorp’s failure to provide deliv-
     erables included in its own technical proposal, the contract implementation plan, or
     measurable performance indicators, as well as INL’s failure to request these required
     deliverables, hinders INL’s thorough and effective management and oversight of this
     task order.




     PALESTINIAN AUTHORITY SECURITY FORCES TRAINING
     Without the required performance measurements, OIG could not verify the effec-
     tiveness of PASF training. However, through its evaluation of the JIPTC training
     courses, OIG determined that DynCorp’s training, which includes presentation of
     curricula, simulated training exercises, and monitoring class attendance, appears
     to be sufficient. A DynCorp representative observes each hour of the 7-hour train-
     ing day. The representative evaluates the Jordanian instructor and is encouraged
     to comment in writing while the training is in session, as appropriate, on student
     involvement and understanding of the material being presented. At the beginning of
     the task order, DynCorp measured its training effectiveness by the instructors’ accu-
     rate presentation of curricula and the trainees’ comprehension of the material. Early
     training courses fell below DynCorp’s internal standard of 85 percent accuracy and
     comprehension. As a result, each instructor was individually coached by DynCorp
     MTT members. Instructors also continued teaching the same assigned subject areas
     to fine tune their presentation. DynCorp reported it has now met its own goal of 85

     8	
        A balance scorecard is a strategic planning and management system used extensively in business and industry,
     government, and nonprofit organizations worldwide to align business activities to the vision and strategy of the
     organization, improve internal and external communications, and monitor organization performance against
     strategic goals.



12              OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                               UNCLASSIFIED
                                        UNCLASSIFIED



percent effectiveness for training at JIPTC, which it has validated only by its internal
criteria. After graduation, the USSC reported to the OIG team that it informally
reviews PASF performance in real life situations. This information is passed back
to JIPTC to help improve instruction and teaching methods. According to USSC
officials, it has determined through observation of anecdotal instances, the PASF
have been adequately operating in the West Bank.

DynCorp representatives also take attendance each hour and report trainees who are
missing from class. Each absent trainee’s location must be recorded—for example, the
clinic (for medical reasons), in quarters with permission, or on another assignment.
The JIPTC trainee attendance rate averages 90 percent. OIG reviewed the time and
attendance system for trainees, MTT personnel, and DynCorp support personnel.
Each person enters his or her time and attendance in the Web-based system, and time
is also monitored and approved by an on-site supervisor. INL compares these records
against hours submitted in the system to ensure accuracy.




         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   13


                                        UNCLASSIFIED
                                             UNCLASSIFIED



     ABBREVIATIONS

     COR	                                   contracting officer’s representative
     Department	                            Department of State
     DynCorp	                               DynCorp International
     FAR	                                   Federal Acquisition Regulation
     INL 	                                  Bureau of International Narcotics and
     	                                      Law Enforcement Affairs
     JIPTC	                                 Jordan International Police Training Center
     MERO	                                  Middle East Regional Office
     MTT	                                   mobile training team (DynCorp)
     NSF	                                   National Security Forces
     OIG 	                                  Office of Inspector General
     PA	                                    Palestinian Authority
     PASF	                                  Palestinian Authority Security Forces
     PSC	                                   personal services contractor
     SOW	                                   statement of work
     USSC 	                                 U.S. Security Coordinator




14            OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                             UNCLASSIFIED
                                        UNCLASSIFIED



APPENDIX I – PURPOSE, SCOPE,
AND METHODOLOGY

The Middle East Regional Office initiated this work under the authority of the
Inspector General Act of 1978, as amended, in response to congressional inter-
est in DynCorp’s task order to train and equip the PASF. The objectives of this
performance evaluation were to determine: (1) the requirements and provisions of
the contract; (2) whether performance measures were established and achieved;
(3) whether the Department of State is effectively managing and overseeing the
DynCorp contract; and (4) how the Department ensures that costs are properly
allocated and supported.

To determine INL’s effectiveness in managing and overseeing the DynCorp task order,
OIG interviewed INL management and staff in Washington, DC, and Jerusalem. OIG
reviewed contract files, monthly status reports, quality control reports, and project
files. OIG reviewed the statements of work for the task order, invoices, and payments.
OIG observed the JIPTC training facility and operation near Amman, Jordan. OIG
obtained and reviewed funding data to include amounts committed, obligated, and
disbursed, and remaining balances including donation letters of agreement and those
individuals authorized to sign, approve, transfer, or release funding from bank accounts,
make payments, and transfer equipment to the PA.

In evaluating the effectiveness of INL management of the DynCorp task order,
OIG interviewed INL management and USSC personnel in Jerusalem. OIG met
with representatives of DynCorp in Jerusalem and Washington, DC. OIG met with
officials from INL, the USSC, Consulate General Jerusalem, and representatives of
DynCorp in Jerusalem, Amman, and Washington, DC. In addition, OIG visited the
USSC office at Consulate General Jerusalem, DynCorp headquarters in Jerusalem,
JIPTC, and the DynCorp warehouse in Sterling, Virginia.

To assess contractor vetting procedures OIG reviewed Palestinian procurement
regulations and interviewed INL officials in Jerusalem and Washington, DC. OIG
reviewed INL’s records and process for ensuring U.S. funds are not being funneled to
foreign terrorist organizations.

OIG conducted this evaluation from July 2010 to February 2011. OIG did not use
computer-processed data to perform this evaluation. This evaluation was conducted
in accordance with the Quality Standards for Inspection and Evaluation issued in
January 2011 by the Council of the Inspectors General on Integrity and Efficiency.



         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   15


                                        UNCLASSIFIED
                                             UNCLASSIFIED



     This report was prepared under the direction of Richard “Nick” Arntson, Assistant
     Inspector General for MERO. The following staff members conducted the evalua-
     tion and/or contributed to the report: Barbara J. Brandon, Patrick Dickriede, Kelly
     Herberger, Janet Mayland, and James Pollard.




16            OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                             UNCLASSIFIED
                                              UNCLASSIFIED



APPENDIX II – TRAINING OFFERED TO
NATIONAL SECURITY FORCES, PRESIDENTIAL
GUARD UNITS, AND INSTRUCTORS



                                                                                              Number of
      Trainees        Type of Training                        Course Title                                      Length of Course
                                                                                               Trainees
                                                 Officer Tactical Leadership                       40                 4 weeks
    NSF             Preliminary Training         Non-commissioned Officer
                                                                                                   40                 4 weeks
                                                 Tactical Leadership
    NSF                                          Combat Lifesaver                                  80                 2 weeks
                                                 Human Rights, Rules of
                                                 Engagement, Firearms,
    NSF             Basic Training*              Checkpoints and Detainee                         500                19 weeks
                                                 Operations, Close Quarters and
                                                 Civil Disturbance, and Patrolling
                                                 Advanced Police Tactics – Crime
                    Specialized Battalion
    NSF                                          Science, Civil Defense, Detainee                  80                 4 weeks
                    Training
                                                 Operations
                                                 Surveillance                                      20                 4 weeks
    NSF
                                                 Advanced Driving Course                           30                 4 weeks
    NSF                                          Light Weapons Repair                              40                 2 weeks
                    Advanced Driving
    Presidential                                                                                   40                 3 weeks
                    Training
    Guard
                    Basic Training                                                                480                14 weeks
                    Basic Instructor
    Instructors     Skills and Specialized                                                         50                19 weeks
                    Training
*
 At the end of training, there is a 3-day exercise in which all students use the newly learned skills and are evaluated
by the instructors.

Source: USSC




               OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011         17


                                              UNCLASSIFIED
                                             UNCLASSIFIED



     APPENDIX III – LOGISTICAL SUPPORT
     FOR PALESTINIAN AUTHORITY SECURITY
     FORCES – PROCUREMENT AND PROVISION
     OF EQUIPMENT


     INL oversees U.S. Government-purchased and donated non-lethal equipment, which
     is provided to the PASF through DynCorp. After the USSC and PA decide which
     equipment needs to be provided, the USSC creates an equipment list, including
     specifications, and sends it to DynCorp to ensure all specifications are accurate and
     complete. The USSC then submits the list to the Government of Israel to approve the
     equipment to be purchased and donated. Once approved, INL reviews the list and
     sends a request for information to DynCorp. DynCorp issues the request for infor-
     mation, obtains bids from three companies, and formulates a proposal for INL and
     the Department’s Office of Acquisition Management. After clearance by the Office
     of Acquisition Management and just before the battalion is to be trained, INL issues
     DynCorp a notice to proceed; DynCorp may then order the equipment. Since several
     months may pass between the DynCorp proposal and the actual notice to proceed,
     the cost of the equipment may have changed and/or the specific equipment may not
     be available. If the cost differs by more than 10 percent from the original estimate,
     the bid process must be repeated. U.S. Government-furnished equipment is held at
     the DynCorp warehouse in the United States (Sterling, Virginia). DynCorp sends a
     list of the equipment and specifications to the Government of Israel for final clear-
     ance to ship. Once the property arrives in Israel, it is processed for value added tax
     exemption, cleared by the appropriate Government of Israel ministries, and released
     to DynCorp. After INL, the USSC, and the PA coordinate the delivery date, the
     USSC obtains permits from Israel, and DynCorp transports the equipment to the
     West Bank. INL, the USSC, and the PA then reconcile the equipment and verify its
     receipt. Some equipment, such as vehicles, is subject to end-use monitoring.




18            OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                             UNCLASSIFIED
                                        UNCLASSIFIED



APPENDIX IV – COMMENTS FROM THE
BUREAU OF INTERNATIONAL NARCOTICS
AND LAW ENFORCEMENT AFFAIRS


                                                                        United States Department of State
                                                                                       Washington, D.C. 20520

					                                                                                                         June 3, 2011

UNCLASSIFIED MEMORANDUM

TO:		              OIG/MERO – Richard G. Arntson, Assistant Inspector General

FROM:	             INL/RM – Robert S. Byrnes, Executive Director

SUBJECT:	          INL Responses on OIG Draft Report Training and Logistical
                   Support for Palestinian Authority Security Forces (Draft Report
                   Number MERO-I-11-09, May 23, 2011)

The Bureau of International Narcotics and Law Enforcement Affairs (INL) appreci-
ates the opportunity to comment on the draft OIG report. Responses to specific
recommendations are below and technical comments are included in Appendix I.

Recommendation 1: OIG recommends that the Bureau of International Narcotics
and Law Enforcement Affairs (INL) require DynCorp to submit performance measures
including a detailed schedule and delivery dates for the provision and distribution of
equipment and delivery of training, which should be incorporated into a contract imple-
mentation plan to be approved by INL. (Action: INL)

INL Response (June 2011): INL agrees with the general intent provided the follow-
ing context is taken into consideration. When the U.S. Government controls, and
the contractor does not have control of, the timing for delivery of any requirement
under a contract award, INL believes that the contractor cannot be held respon-
sible for failure to meet delivery schedules. On the Palestinian program, DynCorp
International (DI) does not control the timing of the provision of training at JIPTC
nor does DI have control over the delivery of equipment to the Palestinian Authority
Security Forces. The provision of both training and equipment is subject to approvals
by the Government of Israel. For those areas that are within DI’s control, INL will



         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011         19


                                        UNCLASSIFIED
                                             UNCLASSIFIED



     request DI to provide an implementation plan. The plan will include timelines for
     submission of resumes for replacement of mobile training team (MTT) members
     when vacancies arise in the MTT cadre, timelines for procurement actions to begin,
     and timelines for shipment to Israel once Government of Israel approval is obtained.

     Recommendation 2: OIG recommends that the Bureau of International Narcotics and
     Law Enforcement Affairs (INL) review the duties, responsibilities, and authorities of the
     INL deputy director position, currently occupied by a personal services contractor (PSC),
     and provide guidance, to include amending the PSC’s contract as necessary, regarding the
     extent of those duties, responsibilities, and authorities. Alternatively, OIG recommends
     that INL convert the deputy director position to a U.S. government direct-hire position.
     (Action: INL)

     INL Response (June 2011): INL disagrees with the premise of this recommenda-
     tion. PSC’s can perform inherently governmental functions other than core policy-
     making functions. INL follows USAID policy on the subject. Per page seven of the
     INL Acquisition and Assistance Policies and Procedures handbook. For OIG’s consider-
     ation, INL offers the following excerpt from the AIDAR:

             (3) Notwithstanding any other provision of USAID directives, regulations
             or delegations, U.S. citizen personal services contractors (USPSCs) may be
             delegated or assigned any authority, duty or responsibility delegable to U.S.
             citizen direct-hire employees (USDH employees) except that:

             a. They may not supervise U.S. direct-hire employees of USAID or other U.S.
             Government agencies. They may supervise USPSCs and non-U.S. citizen
             employees.

             b. They may not be designated as Contracting Officers or delegated authority
             to sign obligating or sub-obligating documents. [Note: Donation letters are
             not obligating or subobligating documents.]

             c. They may represent the agency, except that communications that reflect a
             final policy, planning or budget decision of the agency must be cleared by a
             USDH employee.

             d. They may participate in personnel selection matters, but may not be
             delegated authority to make a final decision on personnel selection.

             e. Exceptions to the limitations in this paragraph (b)(3) must be approved
             by the Assistant Administrator for Management (AA/M). [In INL’s case the
             Assistant Secretary, though this authority has never been exercised.]




20            OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                             UNCLASSIFIED
                                        UNCLASSIFIED



Recommendation 3: OIG recommends that the Bureau of International Narcotics and
Law Enforcement Affairs ensure that all staff members in its office at Consulate General
Jerusalem are properly trained in contract administration. (Action: INL)

INL Response (June 2011): Fulfilled. During the time of the OIG visits, INL
Jerusalem added a previously planned Management Officer (PSC/former Director of
Contracts and Contracting/Grants Officer) to the staff. The Management Officer
has worked extensively with the local staff to provide training in contract manage-
ment, appropriation law, INL financial management, and ethics, and has coordinated
with GSO Contracting Officers at Post and the Regional Procurement Support
Office (RPSO) Frankfurt to ensure that INL practices are compliant with applicable
laws, regulations, and policies.

Recommendation 4: OIG recommends that the Bureau of International Narcotics
and Law Enforcement Affairs assist the Palestinian Authority in developing a property
accountability system to include U.S.-purchased and donated equipment inventory.
(Action: INL)

INL Response (June 2011): INL agrees with the recommendation. Efforts are
underway based on the program’s implementation. INL and USSC are assisting the
Palestinian Authority to develop the institutional capacities necessary to manage and
support the operations of the PASF. Part of this assistance involves helping to build
warehouse and distribution capabilities, and implementation of a modern inventory
control system, consistent with Federal Acquisition Regulations and INL property
management policies, that will track and maintain accountability of U.S.-donated
and other equipment owned by the PA. An INL prototype property management
system was developed in 2008, and underwent testing through limited implementa-
tion and use by the PA. This process identified development and implementation
shortcomings and served as the basis for creating a second generation system. The
new system has been developed with extensive participation and buy-in by the PA.

Since March 2011, the system has been in the process of implementation and is
expected to be the common system for the PA. It will be the foundation that will
support a comprehensive Enterprise Resource Planning (ERP) tool expected to be
introduced during 2012. The ERP solution as an end state will provide the PASF
with comprehensive, integrated asset management, warehousing, and financial
management capabilities.




         OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011   21


                                        UNCLASSIFIED
                                            UNCLASSIFIED



     APPENDIX V – COMMENTS FROM
     CONSULATE GENERAL JERUSALEM

                                                     JERUSALEM
     				                                                                            June 14, 2011


     Nick Arntson
     Assistant Inspector General
     Office of the Inspector General
     Department of State
     Washington, DC 20520

     Dear Mr. Arntson:

     	 Thank you for the opportunity to review the final draft of the Office of
     Inspector General’s Middle East Region Office report on “Training and Logistical
     Support for Palestinian Authority Security Forces – Performance Evaluation.”

     	 Consulate General Jerusalem would like to offer the following response to the
     recommendations in the draft report.

            Recommendation 3: OIG recommends that the Bureau of International
            Narcotics and Law Enforcement Affairs ensure that all staff members in its
            office at Consulate General Jerusalem are properly trained in contract admin-
            istration. (Action: INL)

            Response: During the time of the MERO team’s evaluation, the Consulate
            General’s INL section added a previously-planned Management Officer
            to the staff. The Management Officer has worked extensively with locally-
            employed staff to provide training in contract management, appropriation
            law, and ethics, and has coordinated with GSO Contracting Officers at Post
            and the Regional Procurement Support Office in Frankfurt to ensure that
            INL practices are compliant with applicable laws, regulations, and policies.

                                                                                     Sincerely,



                                                                                     Greg Marchese
                                                                                     Deputy Principal Officer

22           OIG Report No. MERO-I-11-09 - Training and Logistical Support for PASF - Performance Evaluation - July 2011


                                            UNCLASSIFIED
         UNCLASSIFIED




FRAUD, WASTE, ABUSE
OR MISMANAGEMENT
of Federal programs hurts everyone.



           Contact the
   Office of Inspector General

         HOTLINE
to report illegal or wasteful activities:


            202-647-3320
            800-409-9926

         oighotline@state.gov

              oig.state.gov

      Office of Inspector General
       U.S. Department of State
            P. O. Box 9778
         Arlington, VA 22219


     Cables to the Inspector General
    should be slugged “OIG Channel”
        to ensure confidentiality.




         UNCLASSIFIED
